No.

IN THE
SUPREME COURT OF THE UNITED STATES

CURTIS WIGGINS,
Pro Se-Petitioner
VS.

GOLDEN CORRAL CORPORATION,
Respondent
PROOF OF SERVICE
I, Curtis Wiggins, do swear that on this date of June 27, 2020, as required by Supreme
Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
RESPONDENT

GOLDEN CORRAL CORPORATION
(
David L. Woodard
!
POYNERSPRUILL LLP
\
NC State Bar No. 19343
P.O. Box 1801
Raleigh, NC 27602-1801
dRespondent’s Coimsel@povnerspruill.com

ATTORNEY FOR RESPONDENT
I swear under penalty of perjury that the foregoing is true and correct. Execi

fe27,2020

;is Wi

'etitioner

jUL - 8 2020
30

